TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Report on Audit of Forward Pricing
                       Indirect Rates for Fiscal Years 2005
                                  Through 2008



                                         September 2005

                             Reference Number: 2005-1C-169




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Forward Pricing Indirect Rates for Fiscal Years
                             2005 Through 2008 (Audit # 20051C0235)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s July 1, 2004, forward
 pricing indirect rate proposal for Fiscal Years 2005 through 2008. The purpose of the
 examination was to determine whether the proposed forward pricing rates are reasonable.
 According to the DCAA, the contractor submitted adequate cost or pricing data. The proposals
 were prepared in accordance with applicable Cost Accounting Standards and provisions of the
 different Federal Government regulations. The DCAA considers the proposals acceptable as a
 basis for negotiating Fiscal Years 2005 through 2008 indirect rates to be used for forward pricing
 purposes.
 According to the DCAA, the contractor’s accounting system is considered adequate for
 accumulating, reporting, and billing of costs on Federal Government contracts. Also, according
 to the DCAA, the contractor’s estimating system is considered adequate to ensure the forward
 pricing rates are based on accurate, complete, and current cost or pricing data.
 The DCAA audit report was dated August 2004; however, we did not receive a copy of the
 report until August 2005. The Treasury Inspector General for Tax Administration is not shown
 on the DCAA report distribution list. We are transmitting the report to you to assist in the
 management of the contract and to enable the Internal Revenue Service to track any financial
              Report on Audit of Forward Pricing Indirect Rates for Fiscal Years
                                     2005 Through 2008



accomplishments derived from negotiations with the contractor based on results from the DCAA
report.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
